Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  QUESTIONABLE BILLING BY
  SUPPLIERS OF LOWER LIMB
        PROSTHESES
        .




                   Daniel R. Levinson
                    Inspector General

                     August 2011
                    OEI-02-10-00170
   E X E C U T I V E                         S U M M A R Y


                  OBJECTIVES
                  1. To identify payments for lower limb prostheses in 2009 that did not
                     meet certain Medicare requirements.
                  2. To identify Medicare payments for lower limb prostheses in 2009
                     for beneficiaries with no claims from their referring physicians.
                  3. To identify suppliers of lower limb prostheses that had
                     questionable billing in 2009.
                  4. To describe the program safeguards in place in 2009 and the first
                     half of 2010 to prevent inappropriate payments for lower limb
                     prostheses.


                  BACKGROUND
                  Medicare covers lower limb prostheses under its Part B Durable
                  Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS)
                  benefit. Between 2005 and 2009, Medicare spending for lower limb
                  prostheses increased 27 percent, from $517 million to $655 million,
                  while the number of Medicare beneficiaries receiving lower limb
                  prostheses decreased by 2.5 percent, from almost 76,000 to about
                  74,000.
                  Lower limb prostheses are designed to replace, as much as possible,
                  the function of a missing limb. A prosthesis joins the beneficiary’s
                  residual limb at one of several sites, such as the hip, above or below
                  the knee, the ankle, or the foot. Medicare requires that a supplier
                  have an order from a physician before providing prostheses to the
                  beneficiary. This physician is known as the referring physician. After
                  receiving the order, the supplier fits the beneficiary with the most
                  appropriate prostheses. Medicare also requires that suppliers follow
                  local coverage determination policies, which provide guidelines for
                  determining the beneficiary’s potential functional level and specify
                  how suppliers must submit claims for certain types and combinations
                  of prostheses.
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  Durable Medical Equipment (DME) Medicare Administrative
                  Contractors (MAC) to process and pay claims for lower limb
                  prostheses. These contractors also apply processing edits and conduct
                  data analysis that may lead to medical reviews. In addition, CMS

OEI-02-10-00170   QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES     i
E   X   E C     U T   I    V   E      S    U M          M   A     R Y


                          contracts with Zone Program Integrity Contractors (ZPIC) and DME
                          Program Safeguard Contractors (DME PSC) to conduct analyses for
                          aberrant billing and to investigate allegations of fraud.
                          We based this study on an analysis of Medicare Part B claims for
                          lower limb prostheses from 2009 and an analysis of Part A and B
                          claims from 2004 to 2009 for beneficiaries who received lower limb
                          prostheses in 2009. We also interviewed CMS contractors.


                          FINDINGS
                          In 2009, Medicare inappropriately paid $43 million for lower limb
                          prostheses that did not meet certain requirements; these
                          payments could have been prevented by using claims processing
                          edits. These payments were for claims that did not meet the
                          requirements specified in the local coverage determination. The
                          $43 million is based solely on an analysis of claims data and does not
                          include payments that a medical record review may find to be
                          unreasonable or unnecessary. Most of these payments were made to
                          suppliers that incorrectly billed for prostheses for both the right and
                          left limbs using two claims, rather than one. Billing in this manner
                          allows these suppliers to appear to be billing for only one limb when in
                          fact they are billing for both limbs. In other cases, the claims did not
                          include any information about the beneficiaries’ potential functional
                          level when it was required, or the claims were for prostheses that were
                          not medically necessary given the beneficiaries’ potential functional
                          level.
                          Medicare paid an additional $61 million for beneficiaries with no
                          claims from their referring physicians. These beneficiaries had no
                          Medicare Part A or Part B claims that included their referring
                          physicians during the last 5 years, meaning they did not have an office
                          visit with or receive any other services from their referring physicians
                          during this time. Billing for prostheses when the beneficiary had no
                          claims from the referring physician raises questions about whether
                          the physician ever evaluated the beneficiary and whether these
                          devices were medically necessary.
                          In 2009, 267 suppliers of lower limb prostheses had questionable
                          billing. In 2009, 136 suppliers frequently submitted claims that did
                          not meet certain Medicare requirements or were for beneficiaries with
                          no claims from their referring physicians. An additional 131 suppliers

    OEI-02-10-00170       QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES    ii
E   X   E C     U T   I    V   E      S    U M          M   A     R Y


                          had other questionable billing, such as billing for a high percentage of
                          beneficiaries with no history of an amputation or missing limb.
                          Medicare contractors conducted varying degrees of program
                          safeguard activities related to lower limb prostheses. The four DME
                          MACs had varying claims processing edits in place, but none had edits
                          for all requirements. In addition, none of the DME MACs conducted
                          medical reviews, and not all conducted data analyses or provided
                          education related to lower limb prostheses. All five ZPICs and DME
                          PSCs conducted data analyses and opened investigations related to
                          lower limb prostheses.


                          RECOMMENDATIONS
                          We recommend that CMS:
                          Implement additional claims processing edits to prevent
                          inappropriate payments. CMS should instruct the four DME MACs
                          to implement claims processing edits based on all of the local coverage
                          determination requirements.
                          Strengthen monitoring of billing for lower limb prostheses. CMS
                          should instruct the DME MACs, ZPICs, and DME PSCs to monitor
                          billing for lower limb prostheses using the measures discussed in this
                          report. CMS should develop thresholds for these measures and
                          instruct its contractors to conduct additional reviews of suppliers that
                          exceed the thresholds.
                          Implement requirements for a face-to-face encounter to establish
                          the beneficiary’s need for prostheses. We recommend that CMS
                          implement requirements that the referring physician document that a
                          face-to-face encounter occurred. This would help ensure that lower
                          limb prostheses provided to beneficiaries are medically necessary.
                          Revise the requirements in the local coverage determination. CMS
                          should work with the DME MACs to clarify several aspects of the local
                          coverage determination. First, CMS should clarify the definitions of
                          beneficiaries’ functional levels. Second, CMS should revise the local
                          coverage determination or take other steps to require that
                          licensed/certified medical professionals, such as physical therapists,
                          evaluate beneficiaries to determine their potential functional levels.
                          Finally, CMS should consider denying as medically unnecessary
                          certain combinations of prostheses.

    OEI-02-10-00170       QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES    iii
E   X   E C     U T   I    V   E      S    U M          M   A     R Y


                          Enhance screening for currently enrolled suppliers of lower limb
                          prostheses. Federal regulations place new DMEPOS suppliers at the
                          high-risk level and currently enrolled DMEPOS suppliers at the
                          moderate-risk level. CMS should consider placing current suppliers of
                          lower limb prostheses at the high-risk level, thus subjecting them to the
                          more rigorous screening procedures.
                          Take appropriate action on suppliers with questionable billing. In
                          a separate memorandum, we will refer the suppliers that we identified
                          to CMS for appropriate action.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with five of the six recommendations. In response to
                          our first recommendation, to implement additional claims processing
                          edits, CMS concurred and stated it would instruct the DME MACs to
                          implement consistent claims processing edits based on local coverage
                          determination requirements.
                          In response to our second recommendation, to strengthen monitoring
                          of billing for lower limb prostheses, CMS concurred and stated it
                          would issue guidance to the DME MACs and instruct them to consider
                          the measures used in this report as supplemental criteria for detecting
                          high-risk suppliers.
                          In response to our third recommendation, to implement requirements
                          for a face-to-face encounter to establish the beneficiary’s need for
                          prostheses, CMS concurred and stated it is exploring its current
                          authorities to implement such requirements. CMS also stated that it
                          would issue an educational article to further explain policy
                          requirements for lower limb prostheses to providers and suppliers.
                          In response to our fourth recommendation, to revise the local coverage
                          determination, CMS concurred and stated it would review the
                          definitions for the functional levels and develop refinements as
                          appropriate. CMS also stated it would consider adapting an algorithm
                          to guide determination of the functional status of the beneficiary.
                          CMS did not explicitly comment on our recommendation to consider
                          requiring that an objective party determine the functional level. We
                          ask CMS to consider this approach because it would further ensure



    OEI-02-10-00170       QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   iv
                  that beneficiaries receive only prostheses appropriate for their
                  functional levels.
                  In response to our fifth recommendation, to enhance screening for
                  currently enrolled suppliers of lower limb prostheses, CMS did not
                  concur and stated that it has in place sufficient tools that allow for
                  increased scrutiny of existing DMEPOS suppliers. CMS noted that if
                  an existing supplier meets one of several triggering events, that
                  supplier automatically is elevated to the high-risk level. Based on this
                  report and the findings of other Office of Inspector General reports on
                  DMEPOS, we maintain that all current suppliers of lower limb
                  prostheses should be placed at the high-risk level.
                  In response to our sixth recommendation, to take appropriate action
                  on the suppliers with questionable billing, CMS concurred and stated
                  it would share our information with the DME MACs and the Recovery
                  Auditors. Recovery Auditors review Medicare claims on a
                  postpayment basis to identify inappropriate payments.




OEI-02-10-00170   QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES    v
   T A B L E                    O F           C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i


                  INTRODUCTION ............................................ 1



                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                             In 2009, Medicare inappropriately paid $43 million for lower limb
                             prostheses that did not meet certain requirements; these payments
                             could have been prevented by using claims processing edits . . . . 11

                             Medicare paid an additional $61 million for beneficiaries with no
                             claims from their referring physicians.. . . . . . . . . . . . . . . . . . . . . . 12

                             In 2009, 267 suppliers of lower limb prostheses had questionable
                             billing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                             Medicare contractors conducted varying degrees of program
                             safeguard activities related to lower limb prostheses . . . . . . . . . . 16


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



                  AGENCY COMMENTS AND OFFICE OF INSPECTOR
                  G E N E R A L R E S P O N S E . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



                  A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                             A: Medicare Payments for Lower Limb Prostheses, by Type,
                                2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                             B: Centers for Medicare & Medicaid Services Comments . . . . . . 23


                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27




OEI-02-10-00170          QUESTIONABLE BILLING    BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                                       vi
           I N T R O D U C T I O N



                    OBJECTIVES
                    1. To identify payments for lower limb prostheses in 2009 that did not
                       meet certain Medicare requirements.
                    2. To identify Medicare payments for lower limb prostheses in 2009 for
                       beneficiaries with no claims from their referring physicians.
                    3. To identify suppliers of lower limb prostheses that had questionable
                       billing in 2009.
                    4. To describe the program safeguards in place in 2009 and the first
                       half of 2010 to prevent inappropriate payments for lower limb
                       prostheses.


                    BACKGROUND
                    Medicare covers lower limb prostheses under its Part B Durable
                    Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS)
                    benefit. Between 2005 and 2009, Medicare expenditures for lower limb
                    prostheses increased 27 percent, from $517 million to $655 million,
                    while the number of Medicare beneficiaries receiving lower limb
                    prostheses decreased by 2.5 percent, from almost 76,000 to about
                    74,000.1 In 2009, lower limb prostheses represented 81 percent of
                    Medicare Part B payments for all prostheses.
                    Recently, in a number of cases, suppliers fraudulently billed for lower
                    limb prostheses. For example, one supplier was convicted of health
                    care fraud after billing Medicare nearly $1 million for prostheses that
                    were not medically necessary. 2 In another case, a husband and wife
                    were indicted on charges of billing Medicare $1.5 million for prostheses
                    and other items for deceased beneficiaries as well as for beneficiaries
                    who had never been evaluated by their referring physicians.3



                     1 Office of Inspector General (OIG) analysis of Part B claims data from the Centers for

                    Medicare & Medicaid Services’ (CMS) National Claims History File for 2005 and 2009.
                     2 Melissa Correa Velazquez, El Vocero, “Lluvia de fraudes al Medicare,” July 28, 2010.

                    Accessed at http://www.vocero.com/noticias/ley-y-orden/9412-lluvia-de-fraudes-al-
                    medicare.html on September 26, 2010. The information is no longer available online.
                     3Department of Justice (DOJ) and the Department of Health and Human Services (HHS),

                    Maria and Armando Montiel Charged in a 469 Count Indictment for Medicare Fraud,
                    August 11, 2010. Accessed at http://www.stopmedicarefraud.gov/HEATnews/puertorico.html
                    on August 10, 2011.



OEI-02-10-00170     QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                         1
    I   N T       R O   D   U     C T     I   O   N


                                Further, during initial discussions about this study, staff at CMS
                                raised a number of concerns about lower limb prostheses. They were
                                concerned that suppliers were providing higher priced prostheses when
                                lower priced ones were more appropriate, noting that these practices
                                result in inappropriate Medicare payments.
                                This evaluation was conducted as part of the Health Care Fraud
                                Prevention and Enforcement Action Team (HEAT) initiative, which
                                focuses on reducing health care fraud through innovative data analysis
                                and enhanced cooperation between DOJ, OIG, and CMS. 4
                                Lower Limb Prostheses
                                Lower limb prostheses are designed to replace, as much as possible,
                                the function of a missing limb. A beneficiary typically requires lower
                                limb prostheses after amputation because of complications from a
                                disease, such as diabetes. Other beneficiaries need prostheses because
                                they were born without one or both lower limbs. A prosthesis joins the
                                beneficiary’s residual limb at one of several sites, such as the hip,
                                above or below the knee, the ankle, or the foot.5
                                Prostheses can be temporary or definitive. Temporary prostheses are
                                used when the amputated limb is still maturing. Once the residual
                                limb has matured, the supplier fits the beneficiary with definitive
                                prostheses. Definitive prostheses are meant for prolonged use and are
                                typically replaced every 3 to 5 years. They are also typically more
                                expensive than temporary prostheses.
                                Prostheses are further divided into base prostheses and additions. A
                                supplier will typically fit a beneficiary with a base prosthesis and then
                                enhance the base prosthesis with several additions. For example, a
                                base prosthesis for a beneficiary with an above-the-knee amputation
                                typically consists of a foot, an ankle, a shin, a knee, and a socket that
                                interfaces with the residual limb. The additions include enhancements
                                to the base prosthesis, such as a more sophisticated socket or knee or
                                an insert or suspension system for the socket.
                                Medicare pays suppliers for prostheses according to a national fee
                                schedule. Medicare payments for a given prosthesis vary across
                                States; however, they cannot be higher than the ceiling price or lower


                                 4 DOJ and HHS, HEAT Task Force Success, Accessed at

                                http://www.stopmedicarefraud.gov/heatsuccess/index.html on January 11, 2010.
                                 5 For the purpose of this report, we refer to each of these sites as a site of amputation.




OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                            2
    I   N T       R O   D   U     C T     I   O   N


                                than the floor price set by CMS. In 2009, over one-quarter of the
                                $655 million that Medicare spent on lower limb prostheses was for
                                sockets ($167 million), followed by inserts or suspension systems
                                ($113 million) and base prostheses ($107 million). See Appendix A for
                                2009 Medicare spending for each type of lower limb prostheses.
                                Medicare Requirements for Lower Limb Prostheses
                                Provisions of the Social Security Act (the Act) govern Medicare
                                payment for all items or services, including lower limb prostheses. The
                                Act states that Medicare will cover only services and items considered
                                reasonable and necessary for the diagnosis or treatment of illness or
                                injury or to improve the functioning of a malformed body part. 6
                                In addition, Medicare requires that a supplier have an order from a
                                physician before providing prostheses to the beneficiary. 7 This
                                physician is known as the referring physician. Upon receiving the
                                order, the supplier consults with the referring physician as needed to
                                confirm the order and to recommend any necessary changes and
                                evaluates the beneficiary. 8 The supplier fits the beneficiary with the
                                most appropriate prostheses. The supplier then determines the group
                                of codes that best describes the prostheses provided, choosing from
                                178 Healthcare Common Procedure Coding System (HCPCS) codes
                                that are specific to lower limb prostheses. 9 In this report, we refer to
                                each HCPCS code as a prosthesis.
                                Further, local coverage determination policies provide additional
                                Medicare requirements for lower limb prostheses. These policies,
                                consistent with policies for other DMEPOS, are identical across the
                                country. 10 The local coverage determination specifies how suppliers

                                 6 The Act § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A).
                                 7 CMS, Medicare Program Integrity Manual (PIM), Pub. No. 100-08, ch.5, § 5.2.1 (as of

                                Rev. 242; effective 03-01-08). A new physician order is required when there is a change in
                                the order, when an item needs to be replaced, and when there is a change in the supplier.
                                CMS, Medicare PIM, Pub. No. 100-08, ch.5, § 5.2.4 (as of Rev. 242; effective 03-01-08).
                                 8 CMS, DMEPOS Quality Standards, October 2008.
                                 9 HCPCS is a standardized coding system maintained by CMS to ensure uniform billing.
                                The 178 HCPCS codes for lower limb prostheses include all defined codes from L5000 to
                                L5999.
                                 10 CMS, Medicare PIM, Pub. No. 100-08, ch.13, § 13.1.4. The four identical local coverage

                                determinations are entitled Local Coverage Determination for Lower Limb Prostheses. In
                                addition, four identical policy articles on lower limb prostheses provide additional
                                requirements. For the purposes of this report, we refer to all eight documents as “the local
                                coverage determination.” We used the version of the local coverage determination that was
                                in effect in 2009.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                           3
    I   N T       R O   D   U     C T     I   O    N


                                must submit claims for certain types and combinations of prostheses.
                                In particular, it states that each claim must include a modifier to
                                indicate whether the prosthesis is for the right or left limb. When a
                                supplier provides a prosthesis for each limb on the same date, the
                                supplier must submit only one claim and include both the right and
                                left modifiers on the claim. 11
                                The local coverage determination also has guidelines for determining
                                the beneficiary’s potential functional level. Specifically, it states that a
                                beneficiary is placed at one of five potential functional levels based on
                                the reasonable expectations of the supplier and the referring
                                physician. When determining the potential functional level, suppliers
                                must take into account the beneficiary’s history, current condition, and
                                desire to walk. The supplier then uses a modifier on the claim to
                                indicate the beneficiary’s potential functional level (K0 to K4).
                                Prostheses are not considered medically necessary if the beneficiary
                                has the lowest potential functional level (K0), which indicates that he
                                or she does not have the ability or the potential to walk. In addition,
                                for some prostheses, the local coverage determination specifies the
                                minimum potential functional level that the beneficiary must have for
                                the prosthesis to be considered medically necessary.
                                Further, the local coverage determination limits the number of certain
                                prostheses that can be billed on a claim. If the number of units of
                                these prostheses exceeds the limit, the additional items will be denied
                                as not medically necessary. The local coverage determination also
                                considers certain combinations of prostheses to be medically
                                unnecessary. For example, certain sockets are not allowed for use with
                                temporary base prostheses. Finally, the local coverage determination
                                states that HCPCS L5990, a specific type of foot addition, will be
                                denied as not medically necessary. 12
                                In addition, CMS recently established new screening procedures for
                                provider enrollment. Screening may include, for example, licensure
                                and criminal background checks. CMS created three levels of
                                screening—limited, moderate, and high—based on the risk of fraud,


                                 11 Typically, a supplier bills for a set of prostheses on one claim, listing each prosthesis as a

                                separate line item on that claim. For the purposes of this report, we refer to claim line items
                                as claims.
                                 12 While not covered by Medicare, this HCPCS code may be covered by other health care

                                insurers.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                              4
    I   N T       R O   D   U     C T     I   O   N


                                waste, and abuse. 13 New DMEPOS suppliers were placed at the
                                high-risk level, while currently enrolled DMEPOS suppliers were
                                placed at the moderate-risk level. 14
                                Lastly, recent legislation established a face-to-face encounter
                                requirement for certain DMEPOS. 15 For specified DMEPOS that
                                require a written order prior to delivery, the referring physician must
                                document that a physician, physician assistant, nurse practitioner, or
                                clinical nurse specialist has had a face-to-face encounter with the
                                beneficiary before writing the order for the item. 16
                                Claims Processing and Program Safeguard Activities
                                CMS contracts with four DME Medicare Administrative Contractors
                                (MAC) to process and pay claims in different areas of the country. In
                                addition to developing local coverage determinations, the DME MACs
                                apply processing edits to reject, deny, or suspend claims. If the DME
                                MAC rejects a claim, the supplier may resubmit it after making the
                                necessary corrections. If the DME MAC suspends a claim, it reviews
                                the medical records to determine whether the claim should be paid.
                                DME MACs may also conduct medical reviews of claims based on
                                proactive data analysis to prevent improper payments or to collect
                                overpayments. In addition, they conduct outreach and education to
                                suppliers.
                                CMS also contracts with Zone Program Integrity Contractors (ZPIC)
                                and DME Program Safeguard Contractors (PSC) to identify fraud and
                                abuse in their jurisdictions. These contractors conduct data analysis to
                                check for aberrant billing and to investigate allegations of fraud and
                                abuse. They may refer claims to DME MACs to collect overpayments
                                or to law enforcement for further investigation. CMS is transitioning
                                the role of the PSCs to the ZPICs.



                                 13 76 Fed. Reg. 5862, 5867 (Feb. 2, 2011).
                                 14 42 CFR § 424.518 (b)(1)(x) and (c)(1)(ii), effective March 25, 2011.
                                 15 In addition to establishing the new requirement for DMEPOS, section 6407(c) of the
                                Patient Protection and Affordable Care Act (ACA), P.L. 111-148, authorized CMS to apply
                                the face-to-face encounter requirement to other Medicare items and services based on a
                                decision that it would reduce the risk of waste, fraud, or abuse.
                                 16 Section 6407(b) of the ACA, amending 1834(a)(11)(B) of the Act. CMS can specify that

                                the requirements at 1834(a)(11)(B) for a written order before delivery and for a face-to-face
                                encounter apply to any durable medical equipment (DME) (see section 1834(a)(13) of the
                                Act) or any orthotics or prosthetics (see sections 1834(h)(3) and (h)(4)(C) of the Act). As of
                                May 2011, CMS had not applied the face-to-face requirement to lower limb prostheses.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                               5
    I   N T       R O   D   U     C T      I   O   N



                                METHODOLOGY
                                We based this study on: (1) an analysis of all paid Part B claims for
                                lower limb prostheses from 2009; (2) an analysis of paid Part A and
                                Part B claims 17 from 2004 to 2009 for beneficiaries who received lower
                                limb prostheses in 2009; and (3) structured interviews with staff from
                                the following CMS contractors: the DME MACs, ZPICs, and DME
                                PSCs.
                                Using CMS’s National Claims History File, we identified all paid
                                Part B claims for lower limb prostheses (HCPCS codes L5000 to
                                L5999) for 2009. 18 For beneficiaries who had a prosthesis claim in
                                2009, we identified all of their paid Part A and Part B claims during
                                the 5 years prior to their first prosthesis claim in 2009.19 We used the
                                beneficiary’s Health Insurance Claim Number to link these Part A and
                                Part B claims to the 2009 prostheses claims.
                                Identification of Medicare Payments for Lower Limb Prostheses That Did
                                Not Meet Certain Requirements or Were for Beneficiaries With No
                                Claims From Their Referring Physicians
                                We first analyzed the claims data to determine the number of claims
                                that did not meet the requirements specified in the local coverage
                                determination and the total Medicare payments for these claims. We
                                considered a paid claim to not meet these requirements if the supplier
                                (1) did not indicate whether the prosthesis was for the right or left
                                limb, (2) billed for a prosthesis for both limbs on the same date using
                                two claims, 20 (3) did not meet potential functional level
                                requirements, 21 (4) billed for a higher number of units of a prosthesis
                                than allowed on a claim, (5) billed for combinations of prostheses that
                                were not allowed, or (6) billed for prostheses that were not covered.




                                 17 Note that we did not include DME claims.
                                 18 We included all claims from the 50 States, the District of Columbia, Puerto Rico, the
                                U.S. Virgin Islands, American Samoa, and Guam.
                                 19 For the purposes of this report, we refer to the 5 years prior to the beneficiary’s first
                                prosthesis claim in 2009 as “the last 5 years.”
                                 20 The supplier should bill for prostheses for both limbs on the same claim, using a right
                                and a left modifier.
                                 21 In this report, we did not verify whether the potential functional level assigned to the
                                beneficiary was appropriate. We did verify: (1) whether the supplier indicated the
                                beneficiary’s potential functional level on each claim and (2) whether the prostheses were
                                medically necessary for the potential functional level indicated on the claim.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                              6
    I   N T       R O   D   U     C T     I   O   N


                                Next, we analyzed the claims data to determine the number of claims
                                for beneficiaries with no claims from their referring physicians during
                                the last 5 years and the Medicare payments for these claims. Using
                                the National Provider Identifier and Unique Physician Identification
                                Number on the prostheses claims, we identified each beneficiary’s
                                referring physician. We then used these physician identifiers to
                                determine whether the referring physician was included on any of the
                                beneficiary’s Part A and Part B claims, which would indicate that the
                                beneficiary had an office visit or received other services from the
                                referring physician. If a beneficiary had more than one referring
                                physician in 2009, we determined whether the beneficiary had a
                                Part A or Part B claim with any of the referring physicians.
                                Identification of Suppliers That Had Questionable Billing
                                Medicare paid 4,575 suppliers for lower limb prostheses in 2009. To
                                identify the suppliers that had questionable billing, we based our
                                analyses on suppliers that had at least 10 beneficiaries and that were
                                paid at least $100,000 for lower limb prostheses in 2009. These
                                included 1,632 of the 4,575 suppliers and accounted for 92 percent of
                                the $655 million billed for lower limb prostheses.
                                For each supplier, we first determined the percentage of its claims that
                                did not meet Medicare requirements specified in the local coverage
                                determination. If that percentage was greater than the 75th percentile
                                plus two times the interquartile range, we considered the supplier to
                                have an unusually high percentage of claims that did not meet these
                                requirements. 22 We conducted a similar analysis to identify suppliers
                                that had an unusually high percentage of claims for beneficiaries with
                                no claims from their referring physicians during the last 5 years.
                                Next, we identified suppliers of lower limb prostheses that had other
                                questionable billing. We developed seven measures based on the
                                results of past OIG analyses and fraud investigations related to lower
                                limb prostheses, as well as input from CMS staff and contractors. As
                                above, we considered a supplier to be unusually high on a measure if it
                                was greater than the 75th percentile plus two times the interquartile
                                range. The seven measures include:



                                 22 This is a standard method for identifying members of a population with unusually high

                                values on a statistic compared to the rest of the population. See J.W. Tukey, Exploratory
                                Data Analysis, Addison-Wesley, 1977.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                          7
    I   N T       R O   D   U     C T     I   O   N


                                • The percentage of beneficiaries that suppliers have in common. We
                                  based this measure on the number of each supplier’s beneficiaries
                                  who also received lower limb prostheses from another supplier.
                                • The percentage of beneficiaries who had no Part A or Part B history
                                  related to an amputation during the last 5 years. We based this
                                  measure on the number of each supplier’s beneficiaries who did not
                                  have a Part A or Part B claim that included a diagnosis code
                                  associated with a missing lower limb or a procedure code associated
                                  with a lower limb amputation or prosthesis fitting.
                                • The percentage of beneficiaries with unusual combinations of
                                  prostheses. We considered two prostheses billed on the same date
                                  for the same limb to be unusual if they were both definitive base
                                  prostheses or were for different sites of amputation. While certain
                                  prostheses may be provided more than once for the same limb on the
                                  same date, definitive base prostheses should be provided only once.
                                  Also, if a supplier routinely provides prostheses for different sites of
                                  amputation—such as below the knee and above the knee—for the
                                  same limb, that is a cause for concern. 23
                                • The percentage of beneficiaries who received prostheses for both
                                  limbs. Nationwide, 15 percent of Medicare beneficiaries who had
                                  lower limb prostheses in 2009 received prostheses for both limbs.24
                                • The percentage of beneficiaries who received prostheses for
                                  above-the-knee amputations. On average, the payment per
                                  beneficiary for prostheses for above-the-knee amputations is more
                                  than twice the payment for below-the-knee amputations. 25
                                • High average payment per beneficiary for above-the-knee
                                  prostheses. 26 We based this measure on the total payment for

                                 23 For this analysis, we included prostheses that were appropriate for only one site of

                                amputation, such as a below-the-knee socket. Of the 181 lower limb prostheses, about
                                100 are appropriate for one site of amputation, while the remaining prostheses are
                                appropriate for multiple sites.
                                 24 OIG analysis of prostheses claims data from the National Claims History File for 2009.
                                 25 Prostheses for above-the-knee and below-the-knee amputations accounted for 88 percent

                                of all Medicare spending on lower limb prostheses. Prostheses for other sites accounted for
                                the remaining 12 percent of total spending. OIG analysis of prostheses claims data from the
                                National Claims History File for 2009.
                                 26 To determine the average payment per beneficiary, we included prostheses that are
                                appropriate for one site of amputation or for multiple sites. If a prosthesis was appropriate
                                for multiple sites, we identified the site based on other prostheses provided on the same date
                                for the same limb.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                          8
    I   N T       R O   D   U     C T     I   O   N


                                  above-the-knee prostheses divided by the number of each supplier’s
                                  beneficiaries who received these prostheses. For this analysis, we
                                  included suppliers that provided above-the-knee prostheses to at
                                  least 10 beneficiaries. Additionally, because the price for a given
                                  prosthesis varies by State, we used CMS floor prices so that we could
                                  compare suppliers across States.
                                • High average payment per beneficiary for below-the-knee
                                  prostheses. We based this measure on the total payment for
                                  below-the-knee prostheses divided by the number of each supplier’s
                                  beneficiaries who received these prostheses. As we did in the above
                                  analysis, we included suppliers that provided below-the-knee
                                  prostheses to at least 10 beneficiaries. We also used CMS floor
                                  prices so that we could compare suppliers across States.
                                Next, we compared the characteristics of the suppliers that had
                                questionable billing to those of other suppliers. Specifically, for both
                                groups of suppliers, we calculated the percentage of suppliers that
                                were independently owned, rather than owned by a chain, and the
                                percentage of suppliers in each State. 27 We identified the States in
                                which the percentage of suppliers that had questionable billing was at
                                least twice as high as the percentage of other suppliers.
                                Identification of Program Safeguards To Prevent Inappropriate Payments
                                for Lower Limb Prostheses
                                We conducted structured telephone interviews with staff from the four
                                DME MACs, the three ZPICs, and the two DME PSCs. We discussed
                                the program safeguard activities they conducted from January 2009 to
                                August 2010.28
                                We asked the DME MACs about their claims processing edits and any
                                medical reviews and analyses they conducted, as well as any education
                                they provided about billing for lower limb prostheses. We then asked
                                the ZPICs and DME PSCs about any data analyses and investigations
                                they conducted regarding suppliers of lower limb prostheses. We
                                completed these interviews between August and September 2010.


                                 27 We used data from the National Supplier Clearinghouse to identify the State where the

                                supplier practiced and determine whether the supplier was independently owned or owned
                                by a chain.
                                 28 Eight of these contractors were able to discuss the safeguard activities they conducted

                                since January 2009. The ninth contractor began operations in January 2010 and was able to
                                discuss its activities since that time.



OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                            9
    I   N T       R O   D   U     C T     I   O   N


                                In addition, we reviewed documentation from all of the contractors.
                                Specifically, we requested and reviewed documentation related to their
                                claims processing edits, data analyses, investigations, and any
                                education they provided.
                                Limitations
                                The findings in this report are based on analysis of claims data; we did
                                not conduct a medical review of any claims to determine the medical
                                necessity of the prostheses. In addition, the measures included in our
                                analysis are not intended to be a comprehensive set of measures for
                                identifying questionable billing.
                                Standards
                                This study was conducted in accordance with the Quality Standards
                                for Inspection and Evaluation issued by the Council of the Inspectors
                                General on Integrity and Efficiency.




OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   10
           F I N D I N G S

    In 2009, Medicare inappropriately paid $43 million for           Of the $655 million that
          lower limb prostheses that did not meet certain            Medicare paid for lower
          requirements; these payments could have been               limb prostheses in 2009,
                                                                     $43 million was for claims
              prevented by using claims processing edits
                                                                     that did not meet the
                      requirements specified in the local coverage determination. These
                      payments—for 32,260 claims for 9,265 beneficiaries—could have been
                      prevented if claims processing edits had been in place.29 The
                      $43 million is based solely on an analysis of claims data and does not
                      include payments that a medical record review may find to be
                      unreasonable or unnecessary.
                      As shown in Table 1, Medicare paid $20.1 million to suppliers that
                      incorrectly billed for a prosthesis for both the right and left limbs on
                      the same date using two claims, rather than one claim. Billing on
                      different claims enables suppliers to appear to be billing for only one
                      limb, when, in fact, they are billing for both limbs.



                            Table 1: Inappropriate Medicare Payments for Lower Limb
                            Prostheses, 2009

                                                                                        Inappropriate        Percentage of
                                                                                     Payment Amount         All Paid Claims

                            Billed for a prosthesis for each limb on the
                            same date using two claims, rather than one                    $20.1 million              3.3%
                            claim
                            Did not meet potential functional level
                            requirements                                                   $17.8 million              1.0%

                            Did not indicate whether the prosthesis was
                            for the left or right limb                                       $2.7 million             0.4%

                            Billed for combinations of prostheses that
                            were not allowed                                                 $1.6 million             0.4%

                            Billed for a higher number of units of
                            prostheses than allowed                                          $0.9 million             0.1%

                            Billed for prostheses that were not covered                      $0.4 million           < 0.1%

                                Total*                                                     $42.6 million              5.2%
                           * The figures in the last two columns do not sum to the total because a claim may have
                           failed to meet multiple requirements.
                           Source: OIG analysis of Part B prostheses claims, 2010.



                       29 This amount may not be the total cost savings to the Medicare program. In some cases,

                      when a claims processing edit rejects a claim, the supplier may resubmit the claim after
                      making the necessary corrections.



OEI-02-10-00170       QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                               11
    F   I   N     D I   N G    S


                              Medicare paid another $17.8 million for claims that did not meet
                              potential functional level requirements. As noted, beneficiaries have
                              one of five potential functional levels, depending on their health status
                              and desire to walk. In most cases, the claims did not include any
                              information about the beneficiaries’ potential functional level when it
                              was required. In other cases, Medicare paid for prostheses that were
                              not medically necessary given the potential functional level of the
                              beneficiaries as indicated on the claims. For example, some suppliers
                              billed for a knee addition that was designed for the highest potential
                              functional level, even though the beneficiary had a lower potential
                              functional level.
                              Further, Medicare inappropriately paid $2.7 million for claims that did
                              not indicate whether the prostheses were for the right or left limb. It
                              also paid $1.6 million for combinations of prostheses that were not
                              allowed. Most commonly, Medicare inappropriately paid for a
                              definitive socket in combination with a temporary base prosthesis.
                              Lastly, Medicare paid over $1 million for a higher number of units of
                              certain prostheses than was allowed and for prostheses that were not
                              covered by the program.



                  Medicare paid an additional $61 million             In addition to the $43 million
                                                                      that did not meet certain
                         for beneficiaries with no claims
                                                                      Medicare requirements, another
                          from their referring physicians
                                                                      $61 million was for beneficiaries
                              with no claims from their referring physicians. Specifically, these
                              beneficiaries had no Medicare Part A or Part B claims that included
                              their referring physicians during the last 5 years, indicating they did
                              not have an office visit or receive any other services from their
                              referring physicians during this time. These payments were for 55,274
                              claims for 7,066 beneficiaries.
                              Medicare requires the beneficiary’s referring physician to write an
                              order specifying the beneficiary’s need for prostheses. Billing for
                              prostheses when the beneficiary had no claims from the referring
                              physician raises questions about whether the physician ever evaluated
                              the beneficiary and whether these devices were medically necessary.




OEI-02-10-00170               QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES    12
    F   I   N     D I   N G    S


                                                                       In 2009, 136 suppliers
                    In 2009, 267 suppliers of lower limb
                                                                       frequently submitted claims
                    prostheses had questionable billing
                                                                       that did not meet certain
                              Medicare requirements or were for beneficiaries with no claims from
                              their referring physicians. An additional 131 suppliers had other
                              questionable billing, such as billing for a high percentage of
                              beneficiaries with no history of an amputation or missing limb or a
                              high percentage of beneficiaries with unusual combinations of
                              prostheses.
                              These 267 suppliers differed from other suppliers of lower limb
                              prostheses. For example, two-thirds of these suppliers were
                              independently owned, rather than owned by a chain, compared to
                              41 percent of other suppliers. In addition, these suppliers were at least
                              twice as likely as other suppliers to be in Alabama, Mississippi, Puerto
                              Rico, or Wyoming.
                              In 2009, 136 suppliers frequently submitted claims that did not meet
                              certain Medicare requirements or were for beneficiaries with no claims
                              from their referring physicians
                              These 136 suppliers accounted for $22 million of the payments in 2009
                              that did not meet certain Medicare requirements or were for
                              beneficiaries with no claims from their referring physicians. One
                              supplier alone accounted for $2.5 million of these payments. As shown
                              in Table 2, 114 suppliers frequently submitted claims that did not
                              meet Medicare requirements specified in the local coverage
                              determination. Between 16 and 89 percent of their claims did not meet
                              these Medicare requirements, whereas half of all suppliers had
                              2 percent or less of claims that did not meet these requirements. In
                              addition, 33 suppliers frequently submitted claims for beneficiaries
                              with no claims from their referring physicians during the last 5 years.
                              Between 32 and 100 percent of these suppliers’ claims were for
                              beneficiaries with no claims from their referring physicians.




OEI-02-10-00170               QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES     13
    F   I   N     D I   N G        S



                    Table 2: Suppliers That Frequently Submitted Claims That Did Not Meet Certain
                    Medicare Requirements or Were for Beneficiaries With No Claims From Their
                    Referring Physicians, 2009
                                                                                                            Suppliers With
                                                                                                         Unusually High Values*
                                                                               Median Among All
                                                                                       Suppliers
                                                                                                             Range of      Number of
                                                                                                          Percentages       Suppliers

                    Percentage of claims that did not meet certain
                    Medicare requirements                                              2 percent        16 to 89 percent          114

                    Percentage of claims for beneficiaries with no
                    claims from their referring physicians                             8 percent       32 to 100 percent           33


                        Total**                                                                                                   136

                   * We considered a supplier’s percentage to be unusually high if it was greater than the 75th percentile plus two
                   times the interquartile range.
                   ** The figures do not sum to the total because 11 suppliers frequently submitted both types of claims.
                   Source: OIG analysis of Part B prostheses claims, 2010.




                                  An additional 131 suppliers had other questionable billing
                                  One hundred thirty-one suppliers had unusually high values for at
                                  least one of the seven other measures we reviewed. In addition, 34 of
                                  the suppliers that frequently submitted claims that did not meet
                                  certain Medicare requirements or were for beneficiaries with no claims
                                  from their referring physicians also had unusually high values for at
                                  least 1 of the 7 measures listed in Table 3.
                                  As shown in Table 3, 56 suppliers routinely had beneficiaries in
                                  common with other suppliers. These suppliers had between 23 and
                                  92 percent of their beneficiaries in common with other suppliers,
                                  whereas half of all suppliers had 4 percent or less of their beneficiaries
                                  in common with other suppliers. In addition, 13 suppliers frequently
                                  had beneficiaries with no history of an amputation or missing limb
                                  during the last 5 years. At least 65 percent of the beneficiaries of these
                                  suppliers had no amputation or missing limb history, whereas half of
                                  all suppliers had no history of an amputation or missing limb for
                                  28 percent or less of their beneficiaries.
                                  Further, 68 suppliers frequently billed for unusual combinations of
                                  prostheses. Specifically, these suppliers frequently billed for two
                                  prostheses on the same date for the same limb that were either
                                  (1) both definitive base prostheses or (2) prostheses for different sites
                                  of amputation. Most commonly, these suppliers billed for a

OEI-02-10-00170                   QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                              14
    F   I   N     D I     N G       S


                                  below-the-knee definitive base prosthesis (L5301) in combination with
                                  a socket that is appropriate for an ankle amputation (L5632).



                        Table 3: Suppliers With Other Questionable Billing, 2009

                                                                                                            Suppliers With
                                                                                                         Unusually High Values*
                                                                               Median Among All
                                                                                       Suppliers
                                                                                                                          Number of
                                                                                                       Range of Values
                                                                                                                           Suppliers

                        Percentage of beneficiaries that suppliers
                        have in common                                                       4%              23 to 92%              56

                        Percentage of beneficiaries with no history
                        of an amputation or missing limb                                    28%              65 to 95%              13

                        Percentage of beneficiaries with unusual
                        combinations of prostheses                                           3%              18 to 89%              68

                        Percentage of beneficiaries who received
                        prostheses for both limbs                                           13%              36 to 77%              13

                        Percentage of beneficiaries who received
                        prostheses for above-the-knee amputations                           16%              45 to 92%              16

                        Average payment per beneficiary for
                        above-the-knee prostheses                                       $14,695    $29,798 to $40,070                  4

                        Average payment per beneficiary for
                        below-the-knee prostheses                                         $6,128   $12,166 to $17,348               10


                              Total**                                                                                             165

                    This table includes the 36 suppliers that also frequently submitted claims that did not meet certain Medicare
                    requirements or were for beneficiaries with no claims from their referring physicians.
                    * We considered a supplier’s value to be unusually high if it was greater than the 75th percentile plus two
                    times the interquartile range.
                    ** The figures do not sum to the total because a supplier may have unusually high values for more than one
                    measure.
                    Source: OIG analysis of Part B prostheses claims, 2010.



                                  Further, as shown in Table 3, many suppliers had an unusually high
                                  percentage of beneficiaries who received prostheses for both limbs or
                                  for above-the-knee amputations. Finally, a number of suppliers had
                                  unusually high average payments per beneficiary for either above-the-
                                  knee prostheses or for below-the-knee prostheses. These suppliers
                                  commonly billed for significantly more prostheses—or for more
                                  complex prostheses—for each beneficiary, compared to other suppliers.




OEI-02-10-00170                   QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                              15
    F   I   N     D I   N G    S


                                                                      The four DME MACs had
          Medicare contractors conducted varying
                                                                      varying claims processing edits
    degrees of program safeguard activities related
                                                                      in place for lower limb
                         to lower limb prostheses                     prostheses; however, none had
                              edits in place for all of the requirements specified in the local coverage
                              determination. These edits might have prevented the $43 million that
                              Medicare inappropriately paid in 2009 for lower limb prostheses that
                              did not meet these requirements.
                              Additionally, between January 2009 and August 2010, none of the four
                              DME MACs conducted medical reviews and not all conducted data
                              analyses or provided education that was specific to lower limb
                              prostheses. In contrast, during the same period, all five ZPICs and
                              DME PSCs conducted data analyses and opened a number of
                              investigations related to lower limb prostheses.
                              The four DME MACs had varying claims processing edits in place, but
                              none had edits for all requirements
                              The DME MACs most commonly had edits in place that checked for
                              whether the prosthesis was for the right or left limb and whether the
                              beneficiary had the required potential functional level. Additionally,
                              two contractors had implemented edits related to the different
                              combinations of prostheses that were not allowed, and two had edits
                              for prostheses that were not covered. None of the four contractors had
                              edits to check for billing for a prosthesis for each limb on the same date
                              on different claims or for billing for a higher number of prostheses
                              than allowed. Interestingly, the contractor that had the most edits in
                              place had not implemented them until June 2010.
                              None of the DME MACs conducted medical reviews, and not all had
                              conducted data analyses or provided education related to lower limb
                              prostheses
                              None of the four DME MACs conducted medical reviews of lower limb
                              prostheses between January 2009 and August 2010. Staff at the DME
                              MACs noted that medical reviews of prostheses claims were very
                              difficult and required specialized knowledge because of the complicated
                              components that needed to be reviewed. Staff also commonly noted
                              that assessing the beneficiary’s potential functional level was difficult
                              because the local coverage determination did not clearly define the five
                              different levels. Staff reported that the vague definitions made it
                              difficult to determine whether the more complex prostheses allowed for
                              higher potential functional levels were medically necessary.


OEI-02-10-00170               QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES     16
    F   I   N     D I   N G    S


                              In addition, only two of the DME MACs conducted analyses on lower
                              limb prostheses claims. One contractor looked for inappropriate
                              combinations of prostheses and unusually high use of certain
                              prostheses. The other contractor looked for prostheses that were not
                              medically necessary based on the beneficiaries’ potential functional
                              levels indicated on the claims.
                              Finally, three of the four DME MACs provided education to suppliers
                              regarding coverage or billing instructions for lower limb prostheses.
                              This usually consisted of presentations to suppliers or general
                              information that the contractors posted on their Web sites.
                              All ZPICs and DME PSCs conducted data analyses and opened
                              investigations related to lower limb prostheses
                              All five ZPICs and DME PSCs reported conducting data analyses
                              related to lower limb prostheses between January 2009 and
                              August 2010. Specifically, four of the five contractors looked at
                              replacement frequencies. Two looked at trends involving the
                              beneficiaries’ potential functional levels indicated on the claims. One
                              checked for medical histories consistent with an amputation. In
                              addition, four contractors conducted analyses to identify high
                              utilization or billing spikes among suppliers of lower limb prostheses.
                              All five ZPICs and DME PSCs reported opening investigations based
                              on their analyses, referrals, or beneficiary complaints. In total, they
                              reported opening 19 investigations that were specific to lower limb
                              prostheses. The issues typically investigated included suppliers’
                              providing prostheses that were not needed by the beneficiary or
                              suppliers’ billing for, but not providing, prostheses. According to the
                              contractors, the investigations have had differing results. For
                              example, three contractors referred three suppliers to law
                              enforcement. However, another closed two cases because it could not
                              substantiate that the beneficiaries did not need the more complex
                              prostheses that are allowed for higher potential functional levels.




OEI-02-10-00170               QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES    17
          R E C O M M E N D A T I O N S



                   Our findings show a number of problems with Medicare payments for
                   lower limb prostheses. In 2009, Medicare inappropriately paid
                   $43 million for lower limb prostheses that did not meet certain
                   Medicare requirements. These payments could have been prevented
                   by using claims processing edits. Medicare also paid an additional
                   $61 million for beneficiaries with no claims from their referring
                   physicians. Further, we found that 267 suppliers of lower limb
                   prostheses had questionable billing. These included, for example,
                   suppliers that frequently billed for beneficiaries who had no history of
                   an amputation or missing limb or for unusual combinations of
                   prostheses. Lastly, we found that the DME MACs had varying claims
                   processing edits in place for lower limb prostheses; however, none had
                   edits in place for all of the requirements specified in the local coverage
                   determination. We recommend that CMS:
                   Implement additional claims processing edits to prevent inappropriate
                   payments
                   CMS should instruct the DME MACs to implement claims processing
                   edits based on all of the local coverage determination requirements.
                   These edits should check: whether the right or left limb is indicated on
                   the claim, how a prosthesis for each limb on the same date is billed,
                   potential functional level requirements, the number of units allowed
                   for certain prostheses, inappropriate combinations of prostheses, and
                   noncovered prostheses.
                   Strengthen monitoring of billing for lower limb prostheses
                   CMS should instruct the DME MACs, ZPICs, and DME PSCs to use
                   the measures discussed in this report to periodically profile suppliers
                   of lower limb prostheses and focus resources on those that are most
                   likely to present a risk to the program. Specifically, the contractors
                   should determine for each supplier: (1) the percentage of claims that
                   did not meet certain Medicare requirements, (2) the percentage of
                   claims for beneficiaries with no claims from their referring physicians,
                   (3) the percentage of beneficiaries who had no Part A or Part B history
                   related to an amputation, (4) the percentage of beneficiaries who
                   received unusual combinations of prostheses, (5) the percentage of
                   beneficiaries that suppliers have in common, (6) the percentage of
                   beneficiaries who received prostheses for both lower limbs, (7) the
                   percentage of beneficiaries who received prostheses for above-the-knee
                   amputations, (8) the average payment per beneficiary for above-the-


OEI-02-10-00170    QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES     18
    R   E C       O   M   M   E   N D    A T     I        O   N   S


                              knee prostheses, and (9) the average payment per beneficiary for
                              below-the-knee prostheses. CMS should develop thresholds for these
                              measures and instruct its contractors to conduct additional reviews of
                              suppliers that exceed the thresholds.
                              The contractors should use this information to target their efforts to
                              more effectively prevent inappropriate payments and identify fraud or
                              abuse. Contractors could conduct medical reviews of a sample of
                              claims from suppliers that exceed the thresholds on the above
                              measures and use their findings to recover inappropriate payments,
                              place certain suppliers on prepayment review, and initiate fraud
                              investigations.
                              Implement requirements for a face-to-face encounter to establish the
                              beneficiary’s need for prostheses
                              We recommend that CMS use its authority to implement
                              requirements that the referring physician document that a face-to-face
                              encounter occurred. This would help ensure that lower limb
                              prostheses provided to Medicare beneficiaries are medically necessary.
                              Revise the requirements in the local coverage determination
                              We recognize that the DME MACs have an initiative to revise the local
                              coverage determination for lower limb prostheses. CMS should work
                              with the DME MACs to clarify several aspects of the local coverage
                              determination.
                              First, CMS should clarify the definitions of beneficiaries’ potential
                              functional levels. In particular, CMS should set an expectation for
                              when the beneficiary should achieve the level of walking ability
                              indicated by his or her potential functional level. After creating
                              improved definitions, CMS should consider specifying the range of
                              potential functional levels that are appropriate for each prosthesis.
                              These changes would help ensure that prostheses are matched to
                              beneficiaries’ needs and that CMS contractors can assess the medical
                              necessity of these devices.
                              Second, CMS should revise the local coverage determination or take
                              other steps to require that licensed/certified medical professionals,
                              such as physical therapists, evaluate beneficiaries to determine their
                              potential functional levels. To further ensure an objective
                              determination of the beneficiary’s functional level, CMS should
                              require that this person not be financially affiliated with the supplier.
                              The evaluation should include a written report that provides detailed
                              information supporting the determined functional level, and the report

OEI-02-10-00170               QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES     19
    R   E C       O   M   M   E   N D    A T     I        O   N   S


                              should be made available to CMS upon request. While Medicare
                              would need to cover this additional service, the cost would be offset by
                              ensuring that beneficiaries receive only prostheses appropriate for
                              their functional levels.
                              Lastly, CMS should consider revising the local coverage determination
                              to deny as medically unnecessary certain combinations of prostheses,
                              such as more than one definitive base prosthesis or prostheses for
                              different sites of amputation billed for the same limb on the same date.
                              Enhance screening for currently enrolled suppliers of lower limb prostheses
                              Federal regulations place new DMEPOS suppliers at the high-risk
                              level and currently enrolled DMEPOS suppliers at the moderate-risk
                              level. Given the high costs of prostheses and the high rates of
                              questionable billing, CMS should consider placing current suppliers of
                              lower limb prostheses at the high-risk level, thus subjecting them to
                              the more rigorous screening procedures.
                              Take appropriate action on suppliers with questionable billing
                              In a separate memorandum, we will refer the suppliers that we
                              identified to CMS for appropriate action.


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              CMS concurred with five of the six recommendations. In response to
                              our first recommendation, to implement additional claims processing
                              edits, CMS concurred and stated it would instruct the DME MACs to
                              implement consistent claims processing edits based on local coverage
                              determination requirements.
                              In response to our second recommendation, to strengthen monitoring
                              of billing for lower limb prostheses, CMS concurred and stated it would
                              issue guidance to the DME MACs and instruct them to consider the
                              measures used in this report as supplemental criteria for detecting
                              high-risk suppliers.
                              In response to our third recommendation, to implement requirements
                              for a face-to-face encounter to establish a beneficiary’s need for
                              prostheses, CMS concurred and stated it is exploring its current
                              authorities to implement such requirements. CMS also stated that it
                              would issue an educational article to further explain policy
                              requirements for lower limb prostheses and to providers and suppliers.



OEI-02-10-00170               QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES    20
   R   E C        O   M   M   E     N D     A T     I    O      N   S



                                  In response to our fourth recommendation, to revise the local coverage
                                  determination, CMS concurred and stated it would review the
                                  definitions for the functional levels and develop refinements as
                                  appropriate. CMS also stated it would consider adapting an algorithm
                                  to guide determination of the functional status of the beneficiary.
                                  CMS did not explicitly comment on our recommendation to consider
                                  requiring that an objective party determine the functional level. We
                                  ask CMS to consider this approach because it would further ensure
                                  that beneficiaries receive only prostheses appropriate for their
                                  functional levels.
                                  In response to our fifth recommendation, to enhance screening for
                                  currently enrolled suppliers of lower limb prostheses, CMS did not
                                  concur and stated that it has in place sufficient tools that allow for
                                  increased scrutiny of existing DMEPOS suppliers. CMS noted that if
                                  an existing supplier meets one of several triggering events, that
                                  supplier automatically is elevated to the high-risk level. Based on this
                                  report and the findings of other OIG reports on DMEPOS, we maintain
                                  that all current suppliers of lower limb prostheses should be placed at
                                  the high-risk level.
                                  In response to our sixth recommendation, to take appropriate action on
                                  the suppliers with questionable billing, CMS concurred and stated it
                                  would share our information with the DME MACs and the Recovery
                                  Auditors. Recovery Auditors review Medicare claims on a
                                  postpayment basis to identify inappropriate payments.
                                  For the full text of CMS’s comments, see Appendix B.




OEI-02-10-00170                   QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   21
           A P P E N D I X ~ A




                  Medicare Payments for Lower Limb Prostheses, by Type, 2009

                  Type of Lower Limb                 Total Medicare Payments             Average Medicare Payments
                  Prostheses                                        (millions)                       per Prosthesis

                  Base                                                          $107                         $1,935
                  Addition prostheses
                  Socket                                                        $167                          $684
                  Insert or suspension system                                   $113                          $508
                  Knee                                                            $92                        $3,020
                  Foot                                                            $87                        $2,370
                  Other                                                           $79                         $542

                  Ankle                                                           $10                         $659

                   Total*                                                       $655
                  * The figures in this column do not sum to the total because of rounding.
                  Source: Office of Inspector General analysis of Part B prostheses claims, 2010.




OEI-02-10-00170                   QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES                  22
                       A P PEN D                      x        8

                                                       Agency Comments



  (~~"""""C~A"';;'
   \, 4(.
     "-l~V<lll11 t
                                                       -~------------.--~
                         DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                                Administ'rator
                                                                                                Washington, DC 20201




                      DATE:              IJUN 2 42D111
                      TO:           Daniel R. Levinson
                                    Inspector General
                                                                /S/
                      FROM:         Donald M. Berwick, M.D.
                                    Administrator

                      SUBJECT:      Office of Inspector General (OIG) Draft Report: "Questionable Billing b)
                                    Suppliers of Lower Limb Prostheses" (OBI -02-10-00170)


                      Thank you for the opportunity to review and comment on the OIG draft report titled,
                      "Questionable Billing by Suppliers of Lower Limb Prostheses." The Centers for Medicare &
                      Medicaid Services (CMS) appreciates the time and resources OIGhas invested to determine the
                      extent to which Medicare improperly paid claims for lower limb prostheses.

                      Lower limb prostheses are covered by Medicare to replace, as much as possible, the function of a
                      missing limb. Local coverage determinations for lower limb prostheses further explain libw
                      claims must be submitted and what is covered as reasonable and necessary.

                      Through data analysis and structured interviews with Medicare contractors, OIG concluded that
                      in 2009: 1) Medicare inappropriately paid $43 million for lower limb prostheses; 2) Medicare
                      paid for prostheses despite the fact the beneficiaries had no claims from their referring
                      physicians; 3) 267 suppliers oflower limb prostheses had questionable billing; and 4) Medicare
                      contractors conducted program safeguard activities related to lower limb prostheses to varying
                      degrees.                                                                                  .

                      The CMS will work to improve our oversight oflower limb prostheses in the future and move
                      forward in establishing the necessary changes. OIG made the following recommendations.

                      OIG Recommendation 1

                      Implement additional claims processing edits to prevent inappropriate payments.

                      eMS Response

                     . The CMS concurs and will instruct the Durable Medical Equipment Medicare Administrative
                       Contractors (DME MACs) to implement consistent claims processing edits based on local
                       coverage determination requirements.




OEI·02·10·00170                        QUESTIONABLE BILLING BY SUPPLIERS OF LOWER LIMB PROSTHESES                                          23
    A   P P       E   N   D I    X       ~      B




OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   24
    A   P P       E   N   D I    X       ~      B




OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   25
    A   P P       E   N   D I    X       ~      B




OEI-02-10-00170                 QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   26
           A C
              P P
                K EN NO DW I L X E ~ D C G M E N T S


                       This report was prepared under the direction of Jodi Nudelman,
                       Regional Inspector General for Evaluation and Inspections in the New
                       York regional office, and Meridith Seife, Deputy Regional Inspector
                       General.
                       Judy Bartlett and Judy Kellis served as the team leaders for this
                       study. Other principal Office of Evaluation and Inspections staff from
                       the New York regional office who contributed to the report include
                       Christine Moundas, Shanti Nandiwada, and Rachel Siman; other
                       central office staff who contributed include Robert Gibbons, Scott
                       Manley, and Berivan Demir Neubert.




OEI-02-10-00170        QUESTIONABLE BILLING   BY   SUPPLIERS   OF   LOWER LIMB PROSTHESES   27
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
